Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrant to the Scranton, Pennsylvania Department of Police
GR-70-00-015June 15, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Scranton, Pennsylvania, Department of Police.  The purpose of the grants is to enhance community policing.  Scranton was awarded a total of $2,309,297 to hire 20 new police officers and $270,000 to redeploy the equivalent of nine full-time officers from administrative duties to community policing.  	

We reviewed Scranton's compliance with eight essential grant conditions.  We found weaknesses in the four areas identified below.  As a result, we question $38,584 and recommend an additional $114,286 be put to better use.1

For one of the three hiring grant supplements, anticipated expenditures were overstated in the grant application.  Consequently, all funds awarded will not be expended.
	For the hiring grants, we could not determine if the local matching funds came from sources not previously budgeted for law enforcement.
	For the redeployment grant, the grantee did not yet have a plan to track the redeployment of nine full-time equivalents (FTEs).
	Two of the three Annual Reports were not completed timely.  One of seventeen required Financial Status Reports was not submitted.  Of the remaining sixteen, eight were not submitted timely. 

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.



Footnotes
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.